HHS/OIG-Audit--Pharmacy Health Professions Student Loans Program at the University of Missouri-Kansas City, Kansas City, Missouri (A-05-98-00056)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Pharmacy Health Professions Student Loans Program at the University
of Missouri-Kansas City, Kansas City, Missouri," (A-05-98-00056)
October 9, 1998
Complete Text of Report is available in PDF format
(487 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This letter report provides the results of our audit of the Pharmacy Health
Professions Student Loans (HPSL) Program at the University of Missouri-Kansas
City. The HPSL program was implemented through the Public Health Service Act.
The Health Resources and Services Administration (HRSA) has overall management
responsibilities for the program at the Federal level.
We determined that the University was generally in compliance with regulations
concerning the administration of loans. However, our audit revealed that the
University was carrying uncollectible loans in their accounting records.